I    DEPARTMENT OF DEFENSE ADJUDICATION PROGRAM



Report No. 98-124                .      April 27,1998




              Office of the Inspector General
                  Department of Defense
                                                        .
  Gamal, DOD Home Page at: wwW.DODIG.OSD.MIL.

  !kggeemfaFAudits

  To~~ideasforortonquestfutureaudits,~~thePlanningaad
  CuohwumRran&oftheAnalysis,Planning,andTahicalSupport~
    .
  m          at (703) 6044908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  andrcq~canalsobcmaitulto:

                   OAIG-AmB(AT&‘N!+Tt$           S   &ions)
                                                DZ!!L
                       Army Navy Drive (Room 801)
                   Arlington, Vii   22202-2884



  ~~_~~~,~~~,mnfact~~~bycalliDg(800)
                         ehtromc message to Hotlmc@DODIG.OSD.MIL; or
  b w&&othc =ExL          Hotline, The Pentagon, Wash&&m, D.C. 20301-
  1500 . Theidc&ityofeachwriterandcallcrisfullyprotu%i.




                   Automated  I.&math    System
EI                 Dehse-CeInvestlgatimIlKlex
                   DetkIuesecuri~service
EL
JPAS
                   DefWe Management Report De&ion
                   Joint Penoxm4 Adjudication System
NAC                National Agewy Check.
PERSEREC           ~A~~w==hR*leerchtJ=
E                  hsitiveComparhnentedhformation
SSBl               Single Scope Background Invcstigah
                   WasbingtonHeadquartersSenices
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                           ARLINGTON. VlFiGlNlA 22202



                                                                          April 27, 1998




MEMORANDUM         FOR ASSISTANT SECRETARY OF DEFENSE (COMMAND,
                       CONTROL, co -CATIONS,     AND INTELLIGENCE)

SUBJECT: Audit Report on the Department of Defense Adjudication Program
         (Report No. 98-124)


        We are providing this audit report for review and comment. We considered
comments from the Acting Deputy Assistant Secretary of Defense (Intelligence and
Security) on a draft of this report in preparing the final report. DOD Directive 7650.3
requires that all recommendations be resolved promptly. The Deputy Assistant
Secretary of Defense (Intelligence and Security) comments were generally
unresponsive. We request additional comments on Recommendations l., 3., and 4. by
June 29, 1998.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Robert M. Murrell, Audit Program Director, at
(703) 604-9210 (DSN 664-9210) or Ms. Judith I. Padgett, Audit Project Manager, at
(703) 604-9217 (DSN 664-92 17). See Appendix C for the report distribution. The
audit team members are listed inside the back cover.




                                         Robert f Lieberman
                                      Assistant Inspector General
                                              for Auditing
                            Office of the Inspector General, DoD

Report No. 98-124                                                           April 27,199s
   (Project No. 7RD-0048)

                 Department of Defense Adjudication             Program

                                   Executive Summary

Introduction.    The DOD established the personnel security program to ensure that
granting Federal employees, military personnel, contractor employees, and other
affiliated persons access to classified information is clearly consistent with the interests
of national security. The DOD has a multistep process to grant security clearances.
The security clearance process includes a request made by the employing organization,
an investigation performed by the Defense Security Service (formally known as the
Defense Investigative Service), and an adjudication decision made by one of eight DOD
adjudication facilities, down from 19 such facilities in 1991. The eight DOD
adjudication facilities performed about 400,00O adjudicative actions in FY 1996.

Audit Objective.   The audit objective was to determine the feasibility of further
consolidating the DOD adjudication facilities.

Audit Results.   DoD needs to improve and streamline procedures within the DOD
adjudication program to provide consistent and timely security clearances and efficient
customer service. Until such reforms are implemented, DOD organizations will
experience contractor and government personnel employment delays, encounter
multiple forms and procedures when obtaining security clearances, and have to obtain
dual clearances for many individuals. Organizational consolidation is feasible but
process reforms should be pursued regardless of the organizational structure of the
investigative and adjudicative community. For details of audit results see Part I.

Summary of Recommendations.          We recommend that the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) implement a peer
review program, establish training standards and an adjudicator development program,
improve the use of the Defense Clearance Investigation Index, arrange for a copy of an
individual’s investigation report to be included with any statement of intents issued, and
standardize the forms customers use to request personnel security actions.

Management      Comments.    We received comments on the draft of this report from the
Office of the Assistant Secretary of Defense (Command, Control, Communications,
and Intelligence) and the Director for Administration and Management. The Office of
the Assistant Secretary commented that the report did not address the potential benefits
or drawbacks of consolidating the adjudication facilities. According to the Office of
the Assistant Secretary, the report dismisses consolidation as a viable option even
though consolidation could result in indirect savings and efficiencies.
The Office of the Assistant Secretary partially concurred with implementing a peer
review program, showing a DoD clearance code in the Defense Clearance Investigation
Index, and providing an individual with their investigation report when the adjudication
facility issues a letter of intent to deny or revoke a clearance. The Office of the
Assistant Secretary concurred with establishing a continuing education standard for
adjudicators and standardizing the forms used in personnel security processing.

The Director agreed with implementing a peer review program, standardizing the forms
used in personnel security, establishing continuing education, showing a DOD clearance
code in the Defense Clearance Investigation Index, and providing an individual with
their investigation report. He also expressed strong support for the current adjudication
facilities structure. See Part I for a summary of management comments and Part III for
the complete text of the comments.

Audit Response. The Office of the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) comments were generally unresponsive.
The audit confirmed that consolidating the adjudication facilities is a feasible policy
option to the Office of the Assistant Secretary. We did not identify any prohibitions
that prevent the Office of the Assistant Secretary from deciding to consolidate the
adjudication facilities. However, we did note a lack of consensus among users and
operators of adjudication facilities regarding the merits of consolidation from a
customer service standpoint. The comments received from the Director for
Administration and Management further illustrated that observation. In the absence of
any known DOD decision to consolidate the facilities, we believe that measures must be
taken to streamline and standardize processes and data elements.

The Office of the Assistant Secretary comments did not adequately address
recommendations concerning implementing a peer review program within the DOD
adjudication program; using a DOD clearance code rather than a facility specific code in
security clearance databases; and including a copy of an individual’s investigation
report with any statement of intent issued. We request that the OKce of the Assistant
Secretary provide additional comments on those recommendations by June 29, 1998.

The comments from the Director for Administration and Management were responsive
to the recommendations, although we disagree with the comment that further
consolidation of the DOD adjudication facilities would not ever be feasible. No further
comments from the Director are required.




                                           ii
Table of Contents

Executive Summary                                                         i

Part I Audit Results

     Audit Background                                                     2
     Audit Objectives                                                     3
     Improving the DOD Adjudication Program                               4

Part II Additional Information
     Appendix A. Audit Process
                 Scope and Methodology                                   18
     Appendix B. Summary of Prior Coverage                               19
     Appendix C. Report Distribution                                     21

Part III Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,
        and Intelligence) Comments                                       24
     Director for Administration and Management Comments                 29
Part I - Audit Results
Audit Background
       DODPersonnel Security Program. DOD Regulation 5200.2-R, “DOD
       Personnel Security Program, n reissued with expanded direction and procedures
       in January 1987,’ implemented the Federal personnel security program in DoD.
       The program mission is to ensure that Federal employees, military personnel,
       contractor employees, and other affiliated persons are granted access to
       classified information in a manner clearly consistent with the interests of
       national security. To obtain a clearance, an individual must have a current?
       completed, and adjudicated investigation. On November 1, 1995, the Assrstant
       Secretary of Defense (Command, Control, Communications, and Intelligence)
       approved change 3 to DoD Regulation 5200.2-R which implemented two
       significant provisions of Executive Order 12968 pertaining to revised due
       przgocedures         and uniform guidelines for adjudication of security


       Executive Order 12968. On August 2, 1995, the President signed Executive
       Order 12968, “Access to Classified Information. n The Executive Order
       established a uniform Federal personnel security program. The program applies
       to Federal employees, military personnel, and contractor employees whose
       department, agency, or company requests that they have access to classified
       information. The Executive Order requires that all Federal Departments and
       agencies reciprocally accept background investigations conducted by any other
       Federal Department or agency to grant access to classified information.
       Further, the Executive Order revised the due process procedures and established
       uniform adjudication guidelines for all DOD clearances (confidential, secret, and
       top secret), and access to Sensitive Compartmented Information (SCI), and
       Special Access Programs (SAPS).

       Security Clearance Process. DOD Components send requests for investigations
       to the Personnel Investigations Center $the Center), a subordinate organization
       of the Defense Security Service (DSS) . The Center initiates an investigation by
       sending investigative leads to DSS field offices throughout the United States.
       Agents in the field offices complete the leads and send the information back to
       the Center, which collects all investigative leads and forwards the information to




‘The Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) is updating DOD Regulation 5200.2-R for expected issuance in early 1998.

* The Defense Investigative Service was renamed the Defense Security Service in
 November 1997.

                                           2
      one of eight DOD adjudication facilities3 for the adjudication phase. The
      adjudication facility makes a decision to either grant, deny or revoke a clearance
      based on the investigative information that DSS provides and the uniform
      adjudication guidelines. The adjudication facility forwards the decision to the
      DOD Component that requested the clearance.


Audit Objectives
       The audit objective was to determine the feasibility of consolidating the DOD
       adjudication facilities. See Appendix A for a discussion of the audit process.
       See Appendix B for a summary of prior coverage related to the objective.




4The eight DOD adjudication facilities are the Army, Navy, Air Force, Joint Staff,
Defense Intelligence Agency, National Security Agency, Washington Headquarters
Services, and the Defense Office of Hearings and Appeals.


                                           3
            Improving the DOD Adjudication Program
            Consolidating the DOD adjudication facilities is feasible. However, with
            or without consolidation, DOD needs to improve and streamline
            procedures within the DOD adjudication program to provide consistent
            and timely security clearances and efficient customer service.
            Consistent, timely security clearances and efficient customer service
            have been impeded because management has not regularly emphasized
            changes and improvements to the program. As a result, DOD
            organizations experience contractor and government personnel
            employment delays, encounter multiple forms and procedures when
            obtaining security clearances, and obtain dual clearances.



Types of Security Clearances and the Effect on the
Adjudication Process

     DOD has three basic security clearance levels: confidential, secret, and top
     secret. The effort needed to grant each level of clearance varies in the scope of
     the investigation and the amount of information considered in the adjudication.
     Confidential and secret clearances require a minimum of investigative and
     adjudicative effort, while top secret clearances require additional steps and
     information.

     Confidential and Secret Clearances. The basic investigative method for
     confidential and secret clearances is the National Agency Check (NAC).      A
     NAC is a records check of Federal Government agencies that maintain
     information relevant to making a personnel security determination. That
     records check covers a period of 5 years or the years back to the subject’s
     eighteenth birthday, whichever is shorter. At a minimum, a NAC includes
     checks of prior DOD investigative files and inquiries of the Federal Bureau of
     Investigations; however, a NAC may also include checks with other agencies
     such as the Department of State, Department of Treasury, Central Intelligence
     Agency, or Office of Personnel Management.

     In addition to a NAC, the adjudicative guidelines developed in response to
     Executive Order 12968 require that a confidential or secret clearance include
     verification of the subject’s financial status and date and place of birth.
     Financial status is verified through credit bureau checks.

     Top Secret Ckarances. The investigative method for a top secret clearance is
     a single scope background investigation (SSBI). An SSBI is more


                                         4
                                             Improving the DOD Adh&cation                  Program




    comprehensive in scope than the investigations for confidential and secret
    clearances. In addition to the NAC, credit bureau check, and date and place of
    birth verification, an SSBI requires:

           l   verification of U.S. citizenship;

           l   corroboration of educational degree or diploma claimed;

           l   confirmation of employment (includes personal interviews with
               supervisors, coworkers, or both) and military service;

           l   examination of public records to verify or reveal divorces,
               bankruptcies, or court actions; and

           l   interviews of neighbors and persons who have social knowledge of the
                subject.

    An SSBI also covers a longer period of time, 10 years.

    Effect on the Adjudication     Process. Generally, the adjudication facilities take
    less time to grant a confidential or secret clearance than a top secret clearance.
    An adjudicating official must review all the information, resolve conflicting
    reports, and decide whether to grant the type of clearance sought. The
    adjudicator must review significantly more information for an SSBI because of
    the longer period covered and additional investigative steps.


Procedures Within the DOD Adjudication Program
    The DOD needs to improve and streamline procedures within the adjudication
    program to provide consistent and timely security clearances, and more efficient
    customer service.

    Consistently  Adjudicated Security Ckmances.      The Joint Security
    Commission issued a report, “Redefining Security,” February 28, 1994, that
    examined the processes used to formulate and implement security policies in
    DOD and the Intelligence Community. The report included a review of the
    adjudication process. It stated that even though DoD and the Intelligence
    Community established procedural safeguards in the adjudication process, the
    Commission:

                . . . remains concerned about the lack of reciprocity of adjudications.
                Efforts are underway to establish standard adjudicative criteria for the
                entire community and these must be brought to fruition.
Improving the DOD Adjudication Program




       In March 1997, the President approved a single set of adjudication guidelines
       for all security clearances and SC1 access, with reciprocity as the national
       objective.

       However, within DOD, an employee’s security clearance and SC1 access must
       be administratively transferred or reciprocally accepted by the gaining DOD
       adjudication facility when the employee moves from one DOD organization to
       another. While much improved over past practice, a transfer or acceptance still
       entails paperwork and administrative action and reciprocal acceptance is not
       automatic.

       To illustrate the admini+rative process, an individu$ who moves from an A*y
       location to a Navy location must have a Navy adjudication facihp clearance lme
       added in the Defense Clearance and Investigations Index (DCII) to replace the
       Army adjudication facility clearance line. The clearance transfer may be
       delayed a week to several months, even though the person was fully eligible for
       a security clearance and program access. DOD contractors who work with
       multiple DOD SC1 and SAP authorities may also experience reciprocity and
       administrative delays in obtaining clearances and access.

       Timely Adjudicated Security Clearances. Customers of the adjudication
       facilities expressed dissatisfaction with the time the adjudication facilities took
       to decide cases with unfavorable information. However, the customers and six
       of the eight adjudication facilities did not keep statistics about timeliness by type
       of request (single scope background, NAC, or periodic reinvestigation) and type
       of information found (favorable or unfavorable) about the clearance applicant.
       The customers and the adjudication facilities had not established parameters or
       goals for case timeliness.

       The Army adjudication facility maintained the most detailed statistics. The
       statistics for October 1996 through June 1997, showed that SSBIs with
       favorable information were in the adjudication process an average of 11 days;
       with unfavorable information that were not appealed 153 days; and with
       unfavorable information that were appealed 212 days. For the same period, the
       Air Force showed 15 days to process the combination of SSBIs with favorable
       information and unfavorable information that were not appealed. The Air Force
       adjudication facility experienced an average process of 360 days (including
       appeals) for cases with unfavorable information. Although Navy and
       Washington Headquarters Services (WHS) did not maintain detailed statistics,
       personnel from those adjudication facilities estimated that cases with
       unfavorable information (with no appeals) were in process 45 to 60 days for the
       Navy and 14 to 150 days for WHS.


’ The DCII is a computer application and database used to store and process files
 containing personnel security clearance information.


                                             6
                                       Improving the DOD Adjudication Pro-




    Without tracking performance against an agreed-upon standard for case
    timeliness, neither the customer nor the adjudication facility could determine
    whether long-lived adjudication cases were a common occurrence or a problem.

    Ef’f’kientCustomer Service. Customer service to DOD, and particularly the
    Joint Combatant Commands, has improved since 1993. However, the Joint
    Combatant Commands, with personnel from all services, could benefit from
    interchangeable processing for clearances, SC1 access, or SAP access. As of
    July 1997, the Joint Combatant Commands use guidance and forms specific to
    the adjudication facility to process personnel security clearances and report
    adverse actions. The variation in processing and forms can be confusing for
    personnel supporting the Joint Combatant Commands personnel security
    function. Some personnel supporting the personnel security function operate
    without formal training, as an additional duty.


Management Emphasis Could Improve Adjudication
Program Services

    Although certain commendable process reengineering initiatives have been
    made, additional improvements are necessary to provide across the board
    improvement in consistent, timely security clearances and efficient customer
    service. To date, management has focused principally on responding to the
    Defense Management Report Decision (DMRD) No. 986, “Consolidation of
    Personnel Security Adjudication in DOD, n December 11, 1992, and establishing
    the policy to meet Executive Order 12968, “Access to Classified Information,”
    August 2, 1995.

    Action Proposed by DMRD 986. The Deputy Secretary of Defense approved
    the DMRD No. 986 alternative to consolidate DOD personnel security
    adjudication facilities from 19 to 8 facilities. DMRD No. 986 states, “The
    large number of facilities results in an inefficient system where oversight is
    difficult and policy implementation inconsistent.” The Deputy Secretary of
    Defense based his decision on a study done by the Defense Personnel Security
    Research Center (PERSEREC). PERSEREC studied the potential for achieving
    improved efficiency and effectiveness through consolidating DOD adjudication
    facilities and issued the report, “Consolidation of Personnel Security in DOD,”
    October 1991. The report identifies consolidation options to either merge all
    facilities excluding the National Security Agency; or to remain in the current
    configuration.

    Requirements of Executive Order 12968. The intent of Executive Order
    12968 is to consolidate the various policies regarding personnel security that
    different agencies have previously issued. The Order establishes uniform policy
    procedures for all agencies when deciding whether to issue or renew a

                                       7
Improving the DODAdjudication Program




      clearance, define job-based need for access, and initiate standards for
      investigating and adjudicating clearances. Specifically, Executive Order 12968
      requires that the Security Policy Board establish a single set of adjudicative
      guidelines. The President approved those guidelines on March 24, 1997.

     Defense leaders executed the approved DMRD No. 986 alternative in 1993 and
     DOD developed policy to comply with Executive Order 12968 and the approved
     guidelines. Although reciprocity of a clearance in DOD has improved since
     1993, management could further improve reciprocity and the adjudication
     process by emphasizing the following areas: oversight of the adjudication
     process, continuing training for adjudicators, facilitating appeals of denials and
     revocations, and more effective use of the DCII.

      Oversight of the Adjudicative Process. The Joint Security Commission
      reported in “Redefining Security,” February 1994, that “The establishment and
      enforcement [emphasis added] of a single adjudicative standard would eliminate
      the need for costl readjudications. f, Inconsistent application of the standards
      occur in the adju d ication program because the system is not accountable to any
      one office. While it is the responsibility of DOD management to enact policies
      and procedures, no office is assigned the responsibility to ensure that the various
      facilities consistently implement those polices and procedures. Additionally,
      there are no established standards on resource management and productivity to
      effectively measure an adjudication facility.

      In order to ensure compliance and consistent application of policies and
      procedures across the adjudication facilities, a peer review system could be
      implemented. Such reviews are common within the Inspector General
      community as well as public accounting firms. These reviews serve to ensure
      that the work produced meets quality control standards. The reviews would
      ensure that established polices and procedures are being consistently applied
      across all DOD adjudication facilities, and would also identify areas for
      improvement.

      Continuing Training for Adjudicators. DOD adjudicators are not receiving
      continuing education training in specified time frames, nor do they have training
      development plans to be able to work towards a “certificate of adjudication. *
      Training together would increase reciprocity and trust among the adjudication
      facilities. Additionally, DOD SC1 access and security clearance adjudicators
      should work and train in the same environment. Such consistency could foster
      enhanced credibility throughout Government agencies. DoD could more readily
      ask other Government agencies to reciprocally accept DOD clearances,
      eliminating excessive and unnecessary delays caused by obtaining investigative
      dossiers and conducting another adjudication.

      Facilitating Appeals of Denials and Revocations. If an adjudicative facility
      denies or revokes a clearance, it issues a letter of intent stating the reason for


                                            8
                                        Improving the DOD Adjudication      Program




    the denial or revocation. It is up to the individual to obtain their file to
    determine the exact cause of the denial or revocation if they want to appeal the
    decision. That process can be facilitated by having each adjudication facility
    obtain approval from DSS to provide the individual a copy of their investigation
    file along with a statement of the reason their clearance was denied or revoked.
    Currently, WI-IS has an agreement with DSS that allows WHS to release the
    DSS file to the individual. Including the report of investigation along with the
    letter of intent to deny or revoke a clearance decreases the appeal process time,
    provides a modest cost savings, and better utilizes the adjudicators’ time.

    More Effective Use of the DCII. The DC11 is a database listing all cleared
    employees of the DOD. Among other elements, DCII entries currently show
    which adjudication facility granted the clearance. Every time an individual is
    readjudicated, the adjudication facility enters the data into the DCII. The DCII
    could be changed so that the adjudicating office no longer is identified in the
    entry, and all clearances are considered DOD-wide clearances. A DOD
    clearance code would reduce review processes, eliminate performing redundant
    adjudications, and improve efficiencies, particularly for individuals who are
    transferred or hold multiple positions (for example, a contractor who belongs to
    the Air National Guard). The DOD label would force reciprocity and eliminate
    adjudication facilities second guessing each other or performing redundant
    adjudications.



Management Initiatives for Improving Adjudication
Program Services

    DOD management is developing the Joint Personnel Adjudication System
    (JPAS) to improve communication and information-sharing among adjudication
    facilities. In addition, the Army and WHS have established prioritization plans,
    and the Air Force has explored a plan for prescreening cases with only
    favorable information in order to expedite clearances.

    Development     of JPAS. Management has made progress on the JPAS system
    that will give the adjudication facilities a common automated information system
    (AIS) to support the adjudication program. The PERSEREC consolidation
    study estimated that AIS would be a significant cost in any consolidation. JPAS
    will replace the current systems with integrated data bases, distributed
    processing, and common and facility-unique application programs. The JPAS
    will allow distribution of shared and reusable information to DOD adjudication
    facility customers and other interfacing organizations. That common
    information and processing capability is expected to promote standardization
    and reengineering of common personnel security and adjudication processes.



                                         9
Improving   the DOD Adjudication     Program




       Another reason the DOD adjudication facilities are developing the JPAS is to
       respond to DSS development of the Case Control Management System to
       automate the investigation process. JPAS will enable the DOD adjudication
       facilities to receive reports of investigation electronicaIly from DSS. Phase I of
       JPAS is scheduled to be complete when the Case Control Management System
       becomes operational in the second quarter FY 1998. The DOD adjudication
       facilities plan eventually to link all the DOD adjudication facilities to each other
       and to their respective customer agencies using JPAS. That capability should
       increase the timeliness of clearance notification to end users, eliminate the
       unique computer systems the adjudication facilities use, and improve customer
       service.

       Army, Air Force, and WHS Adjudication Facilities Improvements iu
       Adjudication Process. Both the Army and the WHS adjudication facilities
       established case prioritization procedures for adjudicating clean cases (a case
       without any unfavorable information reported on the security questionnaire or
       any of the reports of investigation). The Army Central Personnel Security
       Clearance Facility Management Division identifies clean cases and reviews
       those cases first to determine whether the DOD adjudication facility should grant
       a clearance. The Director, ?VHS, identifies clean cases and assigns them to two
       adjudicators who adjudicate only clean cases. The procedures established at
       those two adjudication facilities have resulted in clean cases adjudicated in
       1 or 2 days. The process changes implemented by the Army and WHS
       adjudication facilities can be used to improve the overall adjudication process.

       The Air Force signed a memorandum of understanding with the Personnel
       Investigations Center (the Center), regarding clean case screening. The
       memorandum stipulates that the Center will screen all Air Force SSBIs, SSBI
       periodic reinvestigations, secret periodic reinvestigations, and special access
       program periodic reinvestigations for the Air Force adjudication facility. The
       Center will forward the completed investigation to the Air Force adjudication
       facility for special programs cases that it marks “clear,” and the Air Force
       adjudication facility will fully adjudicate those cases. The Center will not send
       the completed investigation to the Air Force adjudication facility for cases not
       identified as special programs cases and parked “clean. * The,Center will
       instead send the marked DD Form 1879 or Standard Form 86 to the Air Force
       adjudication facility so that a clearance entry may be made in the DCII.
       Although not specifically stated in the memorandum of understanding, the Air


‘Sensitive compartmented information access, presidential support, limited access
authorizations, or Air Force Office of Special Investigations personnel.

DOD request for a personnel security investigation submitted by the requesting agency.

‘Personnel Security Questionnaire completed by the subject.

                                            10
                                         Improving the DOD Adjudication Program




     Force adjudication facility stated that the objective of the case screening
     program is to improve case processing time and utilize personnel more
     efficiently. The Air Force- adjudicators have reviewed 19 percent of the cases
     the Center identified as clean to verify that the screening process is working
     effectively.


Impact of Adjudication         Services on Customers            and DOD

     Management has not regularly emphasized the need for changes and
     improvements to the adjudicative program. Therefore, DOD organizations have
     experienced contractor and government personnel employment delays, security
     offices use multiple forms and procedures when obtaining security clearances,
     and DoD employees sometimes obtain dual clearances.

     Personnel Employment Delays. The duplication and complexities that exist in
     the adjudication program increase the time required for the adjudication process.
     The average time for the DSS to complete a case is 180 days, and the average
     time for an adjudication facility to review a case is anywhere between 14 days
     and 180 days. Individuals in positions that require clearance are unable to work
     in their full capacity until the clearance is granted.

     Multiple Forms and Procedures. DOD organizations encounter multiple forms
     and procedures when obtaining security clearances. At the time of the audit, the
     Joint Combatant Commands operate using adjudication facility-specific guidance
     and forms for processing personnel security clearances and reporting adverse
     actions. Procedures to request clearance status, report derogatory information,
     transfer clearances, and grant interim clearances differ from one adjudication
     facility to another. DOD organizations are required to submit a service-specific
     form to initiate these procedures. The various forms, DA Form 5247-R,
     OPNAV 5510/413 and AF Form 2583, all contain the same information. In
     some cases, a facility may not require a form and only asks for a telephone,
     facsimile, or e-mail inquiry. The variation in procedures and forms can be
     confusing for personnel supporting the Joint Combatant Commands who
     perform the personnel security function on a rotational basis without formal
     training.

     Duplicated Clearances. Adjudication facilities are carrying out unnecessary
     tasks by issuing clearances to personnel that already have clearance with another
     DOD organization. The existing system creates those situations when an
     individual leaves the employ of one service to work with another service, or
     when an individual works as a DOD civilian as well as a military reservists or
     DOD contractor. Although the individual has a clearance, the gaining DOD
     organization has to submit paperwork to obtain a service-specific clearance for
     the individual. The gaining adjudication facility will review the DSS case or the


                                         11
Improving the DOD Adjudication Program




      DCII and decide whether to grant or deny a clearance. That process is not an
      efficient use of the adjudicator’s time because another adjudicator has already
      deemed the individual to be trustworthy to receive a security clearance.
      Consistent application of the adjudication standards would enhance adjudication
      facilities’ credibility throughout DOD and diminish excessive and unnecessary
      delays.


Consolidation      as a Means to Attain Program Improvement

      Consolidation of the adjudication facilities is feasible, although there are mixed
      views on its merits.

      In the opinion of the Joint Security Commission, as stated in its February 1994
      report, consolidation of adjudication facilities in DOD would improve
      efficiency, effectiveness, and consistency within the program; increase
      timeliness and customer responsiveness; and provide direct cost savings.
      Consolidation would simplify customer service because a consolidated
      adjudication facility would need only one AIS, one set of forms, and one set of
      procedures. A consolidated adjudication facility would encourage consistency
      through single management, systems, and procedures.

      Whether timeliness and customer responsiveness would improve under
      consolidation is less predictable. WHS, which became the consolidated Defense
      Agency adjudication facility in 1993, asked security officers in 11 agencies
      whether further consolidation would be good for them as customers. Of the 11
      security officers, 7 saw no benefit, 1 strongly endorsed, and 3 said it would be
      “okay”. Less responsiveness and “getting lost in the shuffle” were among the
      concerns expressed. Significant direct cost savings from consolidating
      adjudication facilities seem unlikely. In the past, cost savings have generally
      come from personnel reductions. The 1991 PERSEREC study estimated the
      staffing level for two adjudication facilities would be 644 full-time personnel.
      The current staffing level of the eight adjudication facilities is 409.5 full-time
      personnel. Further staffmg decreases must be considered in the context of the
      Assistant to the President for National Security Affairs admonishment in the
      May 24, 1997, transmittal of the approved investigative and adjudicative
      guidelines:

                 Since the President approved Executive Or&r 12968, it has been
                 brought to my attention that some departments and agencies have
                 continued reducing resources devoted to counterintelligence       and
                 security activities. In some cases, the downsizing of these functions
                 may be disproportional to the threat and the workload.     These new
                 Guidelines and Standards, incorporating the lessons learned from the
                 Ames, Nicholson      and Pitts espionage    cases, should be fully



                                              12
                                           Improving the DOD Adjudication             Program




               implemented,       which      cannot     occur    with    inadequate
               reso-.     . . . Therefore, in implementing these new Guidelines and
               Standards, you should ensure that sufficient attention is given to
               budgeting for the requirements contained therein.

    The cost savings of staffing reductions likely would be offset in the near term
    by costs to physically consolidate the adjudication facilities but the efficiencies
    of a consolidated adjudication facility may increase savings over the long term.
    We did not conduct an economic analysis of the many alternatives.


Management      Comments          on the Finding and Audit Response

    The Office of the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) Comments. The Office of the Assistant
    Secretary commented that the report did not address the potential benefits or
    drawbacks of consolidating the adjudication facilities. According to the Office
    of the Assistant Secretary, the report dismisses consolidation as a viable option
    even though consolidation could result in indirect savings and efficiencies.

    Audit Response. Nothing in this report dismisses any option. We did not
    identify any legal or regulatory prohibitions that prevent the Office of the
    Assistant Secretary from deciding to consolidate the adjudication facilities,
    although there are mixed views on the merits of consolidation among facility
    users and operators.


Recommendations,         Management             Comments,          and Audit
Response

    We recommend that the Assistant Secretary of Defense (Command,                    Control
    Combumications, and Intelligence):

            1. Implement peer review within the DOD adjudication                program.

     The Office of the Assistant Secretary of Defense (Comman d, Control,
     Communications, and Intelligence) Comments. The Office of the Assistant
     Secretary agreed that every program should welcome scrutiny, but doubted that
     internal resources would be available to conduct peer reviews and that personnel
     security experts from non-DOD agencies would provide added value. The
     Office of the Assistant Secretary further stated that sufficient equivalent peer
     review mechanisms are already in place.



                                           13
Improving the DOD Adjudication Program




      Audit Response. The Office of the Assistant Secretary comments were not
      fully responsive to Recommendation 1. Although the Office of the Assistant
      Secretary agreed that programs benefit from scrutiny, it proposed no actions to
      provide such scrutiny for the adjudication program. It cites resource shortages
      as a reason for not proposing action. We recognize that resource availability
      constrains many DOD organizations, yet some of those organizations perform
      peer reviews. Obviously, a peer review program would have to be carefully
      designed to consider resource constraints. We did not intend for DOD to obtain
      review services from non-DOD sources, but rather from DOD organizations.
      The Office of the Assistant Secretary further stated that sufficient equivalent
      peer review mechanisms are already in place, but did not describe the guidance,
      function, or effectiveness of those existing mechanisms. We request that the
      Office of the Assistant Secretary reconsider its position and provide additional
      comments on Recommendation 1. If systematic review procedures are already
      in place, and we found none, we request that the Office of the Assistant
      Secretary clarify what they are.

            2. Establish continuing education standards and a program to
      encourage the development and certification of professional adjudicators.

      The Office of the Assiint Secretary of Defense (Command, Control,
      Communications, and Intelligence) Comments. The Office of the Assistant
      Secretary agreed with establishing continuing education and professional
      certification programs; programs that were long-standing goals. It stated that
      DOD expects a continuing education course to be in place by June 1998 and the
      Security Policy Board is expected to propose a professional adjudicator
      certification program by the end of calendar year 1998.

              3. Require each adjudication facility to show a DOD clearance code
      rather than a facility-specific clearance code in the Defense Clearance
      Investigation Index.

      The Offke of the Assistant Secretary of Defense (Command, Control,
      Communications, and Intelligence) Comments. The Office of the Assistant
      Secretary stated that a DOD clearance code would make sense only if DOD
      consolidated the adjudication facilities. According to that Office, without
      consolidation the cost of systems revisions to use one code and to provide
      accountability, produce management reports, and automatically update the
      various military and civilian personnel databases could have a negative cost
      benefit. It further stated that the eight adjudication facilities routinely and
      reciprocally accept each other’s clearances with little time or administration
      expended.

      Audit Response. The Office of the Assistant Secretary comments were not
      responsive to Recommendation 3. We disagree that a DOD clearance code
      would provide function only if DOD consolidated the adjudication


                                          14
                                     Improving   the DOD Adjudication      Program




facilities. Whether or not DOD consolidates the adjudication facilities, the DOD
will have to account to Congress for the clearances granted, produce
management reports by Service and Agency, and automatically update the
various military and civilian personnel databases. A DOD clearance code
implements standardization consistent with Executive Order 12968 and the
Security Policy Board guidelines. The management position on this data
element standardization issue is inconsistent with overall DOD and Office of the
Assistant Secretary policy on data element standardization. We request that the
Off% of the Assistant Secretary reconsider its position and provide additional
comments on Recommendation 3.

       4. Arrange for a copy of an individual’s investigation report to be
provided along with a letter of intent to deny or revoke clearance.

The Office of the Assistant Secretary of Defense (Comman d, Control,
Communications,   and Intelligence) Comments.    The Office of the Assistant
Secretary partially agreed with the recommendation to provide investigation
reports and pointed out that one facility follows the practice. However, the
Office of the Assistant Secretary considered providing investigation reports an
unreasonable workload for larger facilities because of the privacy reviews
needed and an unnecessary vulnerability to disclosure of privacy act
information. When fully implemented in FY 1999, according to the Office of
the Assistant Secretary comments, the Case Control Management System could
provide a feasible and cost effective means for the adjudication facilities to print
out an individual’s entire investigation report.

Audit Response.     The Office of the Assistant Secretary of Defense comments
were not responsive to Recommendation 4. We disagree that providing
investigation reports would unduly burden the adjudication facilities because the
review process to select relevant documents to a particular action has already
established the workload. In addition, the vulnerability to disclosure of personal
information does not significantly change whether one document or many
relevant to a case are released or whether personal information is printed by
copying paper records or computer files. Therefore, as part of its oversight
role, the Office of the Assistant Secretary should implement procedures to
provide a copy of an individual’s investigative report along with a letter of
intent. We request that the Office of the Assistant Secretary reconsider its
position and provide additional comments on Recommendation 4.

       5. Standardize the request and report forms that customers must
use for personnel security actions.

The Office of the Assistant Secretary of Defense (Command, Control,
Communications,   and Intelligence) Comments.    The Office of the Assistant
Secretary agreed with standardizing request and report forms and described
automation efforts that will meet the intent of the recommendation. The Joint


                                     15
Improving the DOD Adjudication     Program




      Personnel Adjudication System will eliminate redundant systems and use
      common data standards. The Office of the Assistant Secretary expects the Joint
      Personnel Adjudication System to be completed by the end of FY 1999 and to
      fully implement this recommendation begmning in FY 2000.

      See Part III for the complete text of the Office of the Assistant Secretary of
      Defense (Command, Control, Communications, and Intelligence) comments.

      Director for Administration and Management Comments. Although not
      required to comment, the Director for Administration and Management
      generally agreed with the recommendations. The Director expressed
      reservations regarding peer reviews among the adjudication facilities because of
      resource and workload constraints. The Director reiterated the position that the
      adjudication process could be improved without consolidating the adjudication
      facilities and objected to terming further consolidation as feasible. The
      complete text of the Director for Administration and Management comments is
      in Part III.




                                          16
Part II - Additional Information
Appendix A. Audit Process


Scope

    This audit did not include an evaluation of the management control program
    because consolidating adjudication facilities is a policy option. Therefore,
    management controls would not apply to the objective as they would to an
    assessment of ongoing operations.


Methodology

    To assess the feasibility of consolidating adjudication facilities, we sent data
    request paclqes to the eight adjudication facilities requesting information on
    their operating costs, staffing, work space requirements, and adjudication
    workload. We also asked for their opinions on the advantages and
    disadvantages of consolidating all adjudication facilities to create one DOD
    facility. We analyzed the operating costs, budget, staffing levels, and
    productivity statistics of each adjudication facility for FYs 1994 to 1997. We
    interviewed officials from the Office of the Assistant Secretary of Defense
    (Command, Control, Communications, and Intelligence); DOD adjudication
    facilities; and other DOD Components. We did not perform an economic
    analysis of consolidation options because of the multiplicity of potential options
    and the lack of any stated DOD consolidation plans that would have helped
    define the most likely options.

    Audit Type, Dates, and Standards. We performed this program audit from
    July 1 through October 30, 1997, in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We did not assess the reliability of the computer-
    processed data provided by the adjudication facilities because the data included
    in the report are for informational purposes and are not relevant to the audit
    results. We did not use statistical sampling procedures for this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DOD and Government contractors that receive security
    clearances. Further details are available on request.




                                           18
Appendix B. Summary of Prior Coverage
   General Accounting Office, Report No. NSIAD-95-101 (OSD Case
   No. 9869), Y3ackground Investigations,~~ March 24,1995. The audit
   objective was to evaluate the Federal processes for conducting background
   investigations, deciding an individual’s suitability for government employment,
   and determining whether an individual meets established criteria for access to
   classified information. The issue relevant to our audit discussed the feasibility
   of having one central agency conduct all background investigations and
   adjudication functions. The report concluded that it may be feasible to have
   such a central agency, however; consolidation could result in less agency
   control over the process and reduce the extent to which an individual agency’s
   requirements and priorities are met. The report did not contain any
   recommendations.

   Inspector General, DOD, Report. 98467, “Access Reciprocity Between DOD
   Special Access Programs,” February 10,1998. The report states that the
   Navy and the Air Force generally did not reciprocally acknowledge special
   access program security eligibility determinations adjudicated within and
   between their respective Military Departments. The report also states that
   although the Army established reciprocity within Army special access programs,
   Army access criteria was not reciprocal with Navy and Air Force special access
   program access criteria. As a result, Navy and Air Force special access
   programs implemented inefficient and redundant processes that were contrary to
   good business practices. In addition, the lack of reciprocity impeded access
   within DOD special access programs, and potentially increased contractor
   overhead costs to the Government and delayed performance on contracts. The
   report recommended that the appropriate offices witbin the Office of the
   Secretary of Defense develop standardized special access program security
   eligibility implementing criteria; establish policy, assign responsibilities, and
   develop operating procedures for a DOD centralized special access program data
   base; develop a special access critical information update form; and establish,
   compartment, and train a cadre of special access adjudicators. In addition, the
   report recommended that the Military Department central coordinating offices
   establish reciprocity by accepting access security eligibility determinations
   already made and establishing points of contact to identify individuals already
   accessed to a program.

   The Office of the Under Secretary of Defense for Acquisition and Technology
   and the Office of the Deputy to the Under Secretary of Defense for Policy for
   Policy Support basically concurred with the recommendations of the report.
   Both offices commented that actions were cun-ently underway to address the
   finding and recommendations identified in the report. The Navy concurred with
   the recommendations, the Army partially concurred with the recommendations,
   and the Air Force comments were not fully responsive.

                                        19
Appendix B. Summary of Prior Coverage




      Inspector General, DOD, Report No. 97-l%, Versonnel Security in the
      Department of Defense,” July 25, 1997. The audit objective was to determine
      the effectiveness and efficiency of the management of the DoD personnel
      security program. The audit reviewed procedures for investigating and
      adjudicating clearances for DOD civilian, military, and contractor personnel.
      The report concluded that the DOD personnel security program is in the process
      of making several improvements and made no recommendations.

      Inspector General, DOD, Report No. 9!HNS-15, The Defense Investigative
      Service hspection Report,” September 21, 1995. The inspection evaluated
      the effectiveness and efficiency of the management programs and pmses         used
      by DSS to support its mission. The report concluded that methodologies for
      determining staffing requirements were not in place for 20 percent of DSS. As
      a result of not using standard methodologies, DSS could not ensure that the
      quantity and shill mix of personnel were appropriate to support mission
      requirements. The report recommended that DSS establish standard
      methodologies to ensure that all staffing requirements are based on uniformly
      a lied standards. DSS responded that it was actively pursuing the most
      e1;Kcient structure for support services. That effort began during a conference
      DSS held in March 1997.

      US Army Audit Agency, Report No. WR 94-215, Tnstalhtion Security
      Support,” September 26,1994. The audit objective was to determine if
      installation security support programs at Fort Huachuca, Arizona were
      effectively implemented. The report concluded that proper procedures were in
      place to ensure efficiently processed security requirements; however; the
      installation’s security training program was inadequate. The audit team
      recommended that the Fort Huachuca Commands establish a joint command
      process action team of instructors and conduct joint quarterly training sessions
      with the career and non-career assistant security managers. The Commands
      nonconcurred with the recommendation.

      Joint Security Commission, “Redefw          Sec~rity,~ February 28,
      1994. The Joint Security Commission report discussed the processes used to
      formulate and implement security policies in the DOD and the intelligence
      community. The Joint Security Commission concluded that the clearance
      process is needlessly complex, cumbersome, and costly. The Joint Security
      Commission made various recommendations that would create a new policy
      structure, enhance security, and lower cost by avoiding duplication and
      increasing efficiency. The President issued Executive Order 12968 in response
      to the Commission’s report.




                                             20
Appendix C. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
Assistant Secretary of Defense (Public Affairs)
Director, Administration and Management
   Chief, Security Policy, Personnel and Security Directorate, Washington
      Headquarters Services
   Chief, Consolidated Adjudication Facility, Personnel and Security Directorate,
      Washington Headquarters Services

Joint Staff
Chief, Joint Staff Security

Department        of the Army
Auditor General, Department of the Army

Department        of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Assistant Director, Central Adjudication Facility, Naval Criminal Investigative Service

Department        of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Director, Directorate of Security and Communications Management, Headquarters,
   497* Intelligence Group




                                          21
Appendix C. Report Distribution




Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Intelligence Agency
   Inspector General, Defense Intelligence Agency
   Director, Central Clearance Facility Division, Counterintelligence and Security
      Activity, Directorate for Administration, Defense Intelligence Agency
Director, Defense Investigative Service
   Director, Defense Personnel Security Research Center
Director, Defense Logistics Agency
Director, Defense Office of Hearings and Appeals, Defense Legal Services Agency
Director, National Security Agency
   Inspector General, National Security Agency
   Director, Personnel Security Services, Office of Security, National Security Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

     Senate Committee on Appropriations
     Senate Subcommittee on Defense, Committee on Appropriations
     Senate Committee on Armed Services
     Senate Committee on Governmental Affairs
     Senate Select Committee on Intelligence
     House Committee on Appropriations
     House Subcommittee on National Security, Committee on Appropriations
     House Committee on Government Reform and Oversight
     House Subcommittee on Government Management, Information, and
        Technology, Committee on Government Reform and Oversight
     House Subcommittee on National Security, International Affairs, and Criminal
        Justice, Committee on Government Reform and Oversight
     House Committee on National Security
     House Permanent Select Committee on Intelligence




                                             22
Part III - Management Comments
Asisstant Secretary of Defense (Command,
Control, Communications, and Intelligence)
Comments

             OFFlCE OF THE ASSISTANT SECRETARY OF DEFENSE
                           WOO DUUWE PENTAGON
                          WASHINGTON.    DC   2oml-aum




        I4R4Om     FOR DIRECTOR, CONTRACT MANAGEMZWT DIRECTORATE, DCDIG

        SUSJECT: Audit Report on the Department of Defense Adjudication
                 Program (ProjectNo. 7RD-0048)


             This is in response to your December 9, 1997 memorandum
        which provided the aubjcct draft report for final comment.
        Specific mnts     for each of the five recommendationsfor
        corrective action are contained at the attachment and represent
        only the views of GASD(C31). While these comments were
        discussed with the other DoD Components that possess central
        adjudication facilities,they do not necessarily reflect their
        views.

             The DOD personnel security program has received extensive
        scrutiny over the past few years from the White House, Congress.
        the DoDIG, the General Accounting Office and others such as the
        Joint Security Cmission in 1994 and the "Moynihan Secrecy
        Commission" in 1997. Many recommendationsresulting from these
        studies have been implementedor are in the process of being
        implemented. They run the gamut from background investigation
        standards, adjudicativestandards, due process FrOCedUreS,
        security forms, to fee for service, polygraph, and pre-
        screening.

             It is believed that the analysis and recommendations
        contained in this report address a few marginal personnel
        security program issues without assessing more fundamental
        concerns such as the potential benefits or drawbacks of
        consolidationof DoD adjudication. While your report states
        that consolidationof DoD adjudication facilities is feasible,
        it appears to dismiss it as a viable option since "significant
        cost savings from consolidatingadjudication facilities seem
        unlikely." Since the report does not provide data to support
        that contention, it is difficult to determine how that
        conclusion was reached. Even if direct resource savings are
        unlikely, there are potential indirect savings and efficiencies
        that could accrue to include the resolution of most of the
        recommendationscited and many others besides.




                                        24
Assistant Secretary of Defense (Command,   Control, Communications,   and
                                                   Intelligence) Comments




              The opportunity to comment on the draft report is
         appreciated. Questions regarding the comments at the attachment
         should be directed to Mr. Peter R. Nelson at 697-3969.




                                    Acting
                      Deputy  sistant Secretary of Defense
                           (Intelligenceand Security)

         Attachment




                               25
Assistant Secretary of Defense (Command,     Control, Communications,     and
Intelligence) Comments




              cuso(C31) WWTS     a DODIGRB YTIONS       POR CORRECTIVE
                        ACTION TOTWE DCDADJUDICATION PRbQuM


         1.   Inplamnt peer review within the DOD ldjudioation program.

              camlENT:    Partially concur. While every program should
              welcome scrutiny to ensure that its practices and procedures
              are consistent with appropriate policies, it is believed
              that there are sufficient oversight mechanisms in place
              within OSD and the Components to ensure compliance. When
              there are problems, these are either addressed by the CAF's
              parent Component or by C3I and corrective action taken. It
              is doubtful that bringing in personnel security experts from
              non-DoD agencies, who are unfamiliar with DOD policies and
              procedures, could provide any value added without a long
              learning curve. On the other hand, drafting personnel from
              within the DoD CAF community for such reviews might work,
              but it would place a burden on a system that is already
              struggling as a result of downsizing. If the current DOD
              CAPS were consolidated into a single CAF, oversight and
              control by OSD (and others) would be simpler and more cost
              effective. Therefore, it is felt that there are sufficient
              equivalent "peer review" mechanisms already in place and
              taking   it any further would be costly without any
              significant value added.

         2.   Eat&lish continuing education standards and a program to
              oncourage the development and certification of professional
              adjudicatora.

              CCMMENT: Concur. This has been a goal of DOD for some time
              that has not yet been realized with respect to professional
              certification. However, there is currently a subcommittee
              of the Security Policy Board's Training and Professional
              Development Committee, which is addressing this very subject
              and will likely have a solution by the end of calendar 1998.
              The first phase of this effort is to revive a one-week
              advanced adjudicator's course, which was previously
              sponsored by the Director of Central Intelligence and
              terminated in 1994 due to resource constraints. This course
              is expected to be in place by June 1998. It must be pointed
              out that DoD has had both basic and advanced adjudicator
              courses since the late 1980's run by the former DoD Security
              Institute now Defense Security Service (DSS). Virtually all
              DoD adjudicators have attended the basic course and a large
              number have attended the advanced course.




                                        26
Assistant Secretary of Defense (Command, Control, Communications, and
                                                Intelligence) Comments




  3.   Require eaah adfudioatfon facility to mhow a DOD clearance
       code r8thmr th8n 8 f8cility-8peaific cluranw   code in the
       Dafm8r   Clur8nc8   Invm8tig8tions   Index.

       C-NT:      Partially concur. This is another recommendation
       that would resolve itself under a single DOD adjudication
       facility and makes the most sense in that context.   So long
       as there remain multiple adjudication facilities, there
       exists the real issue of accountability for the issuance of
       the security clearance. Also important is how C31 annually
       compiles a management report of all clearances issued,
       denied and revoked, broken out by CAF. Also, each CAF
       automatically updates its military and civilian personnel
       databases with the clearance information on each soldier or
       civilian. This process could be jeopardized without careful
       planning and investment in system revisions. Absent total
       consolidation, the adoption of this recommendation could
       eliminate the ability to construct such a management
       document without significant difficulty.   Since the eight
       DOD CAFs routinely and reciprocally accept each other's CAF
       clearances with little time or administration expended, it
       is necessary to ensure that adoption of this recommendation
       will not cost more than it would gain.

  4.   Arrrnge for 8 copy of an individu81*8 inveatig8tion report
       to be provided along with a letter of intent to deny or
       revoke ole8r8noe.

       COIQ4ENT: Partially concur. At least one CAF already
       follows this practice although not required to do so by E.O.
       12968. This CAF has a much smaller volume than most of the
       others and has an arrangement with DSS to conduct an
       expeditious privacy review before release.   For the higher
       volume CAPS this becomes a significant workload issue with
       regard to conducting the necessary privacy reviews, either
       with their own resources or through DSS, and then
       reproducing the entire case, which could be many pages in
       length. Also, there may be a privacy issue involved since
       the statement of reasons is provided to the subject through
       his unit security manager.  With the entire case file
       attached, other persons would be privy to potentially
       sensitive personal information.   If DSS were to conduct the
       review for all CAFs, valuable time could be lost in
       processing the action since their resources may be
       insufficient for a larger volume of cases. When DSS fully
       implements their Case Control Management System (CCMS) and




                                   27
Assistant Secretary of Defense (Command,     Control, Communications,   and
Intelligence) Comments




              begins providing electronic reports of investigation to the
              CAFs with an effective print capability, this may be a more
              feasible and cost effective option. This could possibly be
              implemented in M99 so long as COWS provides  the needed
              print functionality to the CAFs. Until that time comes, it
              is believed that the current systa of providing only the
              investigative documents relevant to the unfavorable action
              is appropriate and consistent with E.O. 12966.

         5.   Standardize the requrst and report fomu   that customers must
              use for per8onnel 8eourity 8ction8.

              ComlFNT:   Concur.  This is another issue that could also be
              resolved through CAF consolidation. However, this can also
              be achieved through the successful conclusion of efforts
              currently underway via the Joint Personnel Adjudication
              System (JPAS) . This effort, headed by C31, will create a
              "virtual CAF" by eliminating redundant, stovepipe systems,
              8dOpting  common data standards using shared and reusable
              data, and establishing coavaondata links with all customer
              agencies. The DoD CAl?swill be electronically linked to
              each other, external databases and their customers.
              Beginning in March 1998, the JPAS Program Management Office
              and its contractor will be holding a series of workshops
              with CAF customer personnel to design common electronic
              formats that will be used to communicate information between
              the field and the CAP. This effort is expected to be
              completed by the end of FY99 barring any unexpected changes
              in the funding stream and full implementation of this
              recommendation could begin in FY2000.




                                        28
Director for Administration                                 and Management
Comments

                       OFFICE OF THE SECRETARY OF DEFENSE
                               1SS0 DEFENSE PENTAGON
                                WASHINGTON.        DC   20301-ISSO


                                                                     !. i




          MEh4ORANDUMFOR DEPARTMENTOF DEFENSEINSPECTORGENERAL
                         AtIn: Ms. Judy Padgett,Audit hject Manage

          SUB~lnspcetorGencral,DOD,DraftAuditReportoathe~ofDcfarPc
                  AdjudicationProgram(ProjectNo. 7RD-OW)


                l%isisinraponsetoyoluleqlKstforcommaltoflthesubjcctdnfr

                WewclamethednllYsselcctionofopaasiolrPl refhaassstheplatfonnfol
                            Inourjudgnxn~lbisapptwchisfarmorewrhbkimd

          frcilitia.TbertiswsouDdbsisforthchttcr,ucitedinmy18August1997
          manomndum (copy atached). It wuld -lydisfuptrcrrdully&signed
          deprnmeptasawhue.Tbatsbwturciswrkingwcll.Wlukverimpro~
          cansidered d&able can be implcmcntai by policy aridmanagementinitiatives.
          Acoordirrgly,tbmisnoj~~~nfortbeunsupportedconclusionintbedraftthat
          ‘coosoMatiog DOD adjudicationfkilities is feasible.”


           RcamamMons for Corrccti~~Actioo”. Mile I may not shtrc their views on every
          detail, I urge &at your oficc give them full coosidemtion



                                                         D.O. Co&
                                                         Dinctor




                                              29
Director for Administration         and Management




                              OFFICE     OF THE SECRETARY OF DEFENSE
                                             l~s8ocmNsErENTAGotl
                                            WASHINGTON.     D.C.   2Oy11-1   lS¶




             MEMORANDUM FOR DEPARTMENT OF DEFENSE lNSPECTOR GENERAL.
                            Attn: Ms. Judy Padgctt, Audit Project Manager

             SUBJECT: hqector Gcnaal, DOD, “Adit of the DOD Adjudication Program,” Project
                     No. 7RD-0048. Request for Information




                      SofuasmknowtbrrcismsubsmntivefindiqthatDODmmrgcmcnt
             intcrcstsnrcnotbcstaddms%dbytbccxisting-.             Noriritcvidcntthatthc
             dcpPrtwnlweuldncccsklybcbettcroavddbyamassiwdkuptiontoit.

                    ItrwrtthtiftheIGstlrfffisdsfeesibeanintcrnalrrcommendationof~
             consokiatior& m &             wmdd 80 forward absent the opportunity of afkted   sakn
             man8gastocommmtindctaiL

                                                                   c522z-&
                                                                   D. 0. Cooke
                                                                   Director
             Attch: a/s




                                                       f




                                                      30
             Director for Administration                    and Management               Comments




WIIS Staff Commooboo DraftIC Rocommon&tioy             Aodit Rqmrt 7RB 004

I. Implement Peer Review within rhe DOD A+dication  Program. WC think the system
~dSbOddbCICgU&lYOVCXSigbtCdbytbC~~                               OASDK31.
workingwith ~tPdieyrtaf&.Peareview~~rtaaoa-stPltcr.duelo
impmcticability md wnkkud wnsmu~W

2. Esmbiish Ccmtinning Edirmon Sum&m& anduProgramroEflmmgencorPrrgrrhc
Developmenr and Ce@cafion of Pro~~imal A&diumrs.     Ap.   so long 8s
pmiously idcntifkd kgal issues sunwmdhg c&iGation ase tw&cd.

3. Rqnire Each a&iico~ionFacility IOShow a DOD Clearatm Co& rasher than
Facility-spcijic Char~cc    Code in lhe hfenre Clcaratw a& hwstigaIiw      It&x. Since
CAFs are issuing DOD ckanncu anyway sad it’s a support for reciprocity, we like the
idea so long as any necessary tcchnhl adjustments are made fitst. These shouldn’t be
-Y.

4. Amange/or a Cqv qfan hdivhal’s hves~igarion Report to bt Provi&dAlong with
o Letter of IRIC~IIO lkny or Revoke Clearance. WHS is swoogly conmined to &is
pm&x, leads Ihe dcprtmcnt on it, and wii continue with it. It should be expanded
across the entire DOD pgmm.

5. Sknabrdize rhe Regwst and Reporl Forms that Customers Mist Use* Personnel
.Secwify Actions. A smightfomrd enough n&m, .sddwmblelosoau~with
introductionofthccxpcctcdJoint    Pcrsontw I Sadly Adjudhtion System, but we hnvc
.wne doubt thatthereis B significnnt problem with forms nmongthe customers.
Audit Team Members

This         was prepared by the Contract Management Directorate, Office of
the Assistant Inspector General for Auditing, DOD.

Paul J. Granetto
Thomas F. Gimble
Robert M. Murrell
Judith I. Padgett
Dennis R. Wokeck
Lorin T. Pfiel
Carla D. Aikens
Kyle Franklin
